                                                                             Office               Hotline

    Office of Inspector General                                              202.692.2900
                                                                             peacecorps.gov/OIG
                                                                             OIG Reports
                                                                                                  202.692.2915 800.233.5874
                                                                                                  Online Contact Form
                                                                                                  OIG@peacecorps.gov




To:             Carrie Hessler-Radelet, Acting Director
                Daljit Bains, Chief Compliance Officer

From:           Kathy A. Buller, Inspector General

Date:           March 15, 2013

Subject:        Final Report on the Program Evaluation of Peace Corps/Namibia
                (IG-13-01-E)

Transmitted for your information is our final report on the Program Evaluation of Peace
Corps/Namibia.

Management concurred with all 14 recommendations1. We closed six recommendations:
numbers 1, 3, 4, 5, 11, and 14 based on a review of corrective actions and supporting
documentation. Recommendations 2, 6, 7, 8, 9, 10, 12, and 13 will remain open pending
confirmation from the chief compliance officer that the documentation identified in
management’s response has been received. In its response, management described actions it is
taking or intends to take to address the issues that prompted each of our recommendations. We
wish to note that in closing recommendations, we are not certifying that the agency has taken
these actions or that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities.

Our comments2, which are in the report as Appendix C, address these matters. Please respond
with documentation to close the remaining open recommendation within 90 days of receipt of
this memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Evaluation Jim O’Keefe at 202.692.2904 or to Senior Evaluator Susan Gasper at
202.692.2908.

Please accept our thanks for your cooperation and assistance in our review.

Attachment

cc:     Elisa Montoya, White House Liaison/Senior Advisor to the Director
        Bill Rubin, General Counsel
        Carlos Torres, Acting Associate Director, Global Operations

1
  While the preliminary report contained 15 recommendations, we eliminated one recommendation,
recommendation number 12, because of duplication. All subsequent recommendation numbers were changed
accordingly.
2
  Our comments reflect the final report recommendation numbering scheme.


                                                                                                             1
Dick Day, Regional Director, Africa
Krista Rigalo, Chief of Programming and Training, Africa
Edward Hobson, Associate Director, Safety and Security
Brenda Goodman, Deputy Associate Director, Volunteer Support
Sonia Stines Derenoncourt, Director, OPATS
Kathy Rulon, Acting Director, Office of Global Health and HIV
Gilbert Collins, Country Director, Namibia
Jennifer Parish-Taylor, Special Assistant to the Chief Compliance Officer
Namibia Country Desk




                                                                            2
Peace Corps
Office of Inspector General




            Flag of Namibia




            Map of Namibia



Final Program Evaluation Report:
       Peace Corps/Namibia
           IG-13-01-E
                              March 2013
                               EXECUTIVE SUMMARY
Over 1,200 Peace Corps Volunteers have served the people of Namibia since the program was
first launched in 1990. There are currently three project sectors in Namibia: education,
community health, and economic development. At the onset of this evaluation, 118 Volunteers
were serving in Namibia. There are two inputs of Volunteers per year.

We determined that the post is building a strong programming foundation. The post has
embraced the Focus-In Train Up initiative (FITU) and continues to work on aligning its two
longest running projects, education and health, according to the goals of this agency-wide
initiative. The newest project, entrepreneurial development, which launched in 2010, is off to a
promising start. Although the post‟s relationships with host country stakeholders seemed
generally positive, the post was missing some systematic processes intended to ensure
coordination. The post‟s projects did not have Project Advisory Committees (PACs), nor did the
post provide a comprehensive annual report for stakeholders.

Key staff members were not sufficiently involved in the Volunteer site development process and
the availability of medical and health resources were not fully assessed for Volunteer sites.
While most Volunteers were satisfied with their site placement, site history files were not
organized in a logical, accessible manner and staff members who had no knowledge of
previously serving Volunteers could have difficulty utilizing history information to develop sites
or follow up on Volunteer concerns.

While training was generally effective, Education and Health Volunteers reported that technical
training was not effective to prepare them for their job placements. Volunteers also report that
language proficiency was a barrier to their integration into their communities.

In general, we determined that post has developed a solid Volunteer support structure.
Volunteers gave high marks for most staff‟s support. However, we identified some issues related
to Volunteer safety and emergency preparedness. Some Volunteers were unaware of their
consolidation points and did not have current emergency action plans, and many Volunteers‟ Site
Locator Forms were missing important information. Lastly, the post has not articulated clear
guidelines about hitchhiking, even though Volunteers reported that hitchhiking was their primary
mode of transportation.

Our report contains 14 recommendations, which, if implemented, should strengthen
programming operations and correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: Peace Corps/Namibia                                                 i
                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................................... i

HOST COUNTRY BACKGROUND ......................................................................................................1

PEACE CORPS PROGRAM BACKGROUND........................................................................................1

EVALUATION RESULTS ....................................................................................................................3
          PROGRAMMING ................................................................................................................................................ 3

          TRAINING ......................................................................................................................................................... 6

          VOLUNTEER SUPPORT .................................................................................................................................... 10

          MANAGEMENT CONTROLS ............................................................................................................................. 18

          PRESIDENT‟S EMERGENCY PLAN FOR AIDS RELIEF (PEPFAR) .................................................................... 19


OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................................................21

INTERVIEWS CONDUCTED .............................................................................................................23

LIST OF RECOMMENDATIONS .......................................................................................................26

APPENDIX A: LIST OF ACRONYMS ................................................................................................28

APPENDIX B: AGENCY’S RESPONSE TO THE PRELIMINARY REPORT ...........................................30

APPENDIX C: OIG COMMENTS.....................................................................................................40

APPENDIX D: PROGRAM EVALUATION COMPLETION AND OIG CONTACT ...............................42
                           HOST COUNTRY BACKGROUND
Namibia is located on the southwest coast of Africa. It borders Angola and Zambia in the north,
Botswana in the east, South Africa in the southeast and south, and the Atlantic Ocean in the west.
The total land area is 317,500 square miles, almost twice the size of California. Its terrain is
mostly high plateau, with the Namib Desert along the coast and Kalahari Desert in the east.

South Africa occupied the German colony of South-West Africa during World War I and
administered it as a mandate until after World War II, when it annexed the territory. In 1966 the
Marxist South-West Africa People's Organization (SWAPO) guerrilla group launched a war of
independence for the area that became Namibia, but it was not until 1988 that South Africa
agreed to end its administration in accordance with a UN peace plan for the entire region.
Namibia has been governed by SWAPO political party since the country declared its
independence in 1990.

The population of Namibia is 87.5 percent black; six percent white and 6.5 percent mixed. About
50 percent of the population belongs to the Ovambo tribe, with many other ethnic groups
represented, including the legendary Bushmen. In its effort to achieve greater national unity, the
new government of the Republic of Namibia declared English as its official national language.
Afrikaans is a common language of most of the population and about 60 percent of the white
population. German is also spoken, as are several indigenous languages.

The Namibian economy is closely linked to South Africa with the Namibian dollar pegged one-
to-one to the South African rand. The economy is heavily dependent on the extraction and
processing of minerals for export. Namibia is a primary source for gem-quality diamonds,
uranium and it also produces zinc, gold and other minerals. A high per capita GDP, relative to
the region, hides one of the world's most unequal income distributions. Namibia is considered
“medium human development” (0.625), per UNDP‟s human development index (HDI), and
ranks 120 out of 187 countries with comparable data.1 The HDI of Sub-Saharan Africa as a
region is 0.463 today, placing Namibia above the regional average. However, fifty-one percent
of the population is unemployed and 55.8 percent of the population lives below the poverty line.
The adult HIV/AIDS prevalence rate in Namibia is 13.1 percent.


                   PEACE CORPS PROGRAM BACKGROUND
Soon after Namibia declared independence, the government of the Republic of Namibia
requested Peace Corps‟ assistance to assist with the transition from Afrikaans to English. Peace
Corps began its program in Namibia with an input of 14 English Teacher Volunteers in
September 1990.


1
  “The Human Development Report” publishes an annual Human Development Index (HDI). The HDI provides a
composite measure of three basic dimensions of human development: health, education and income. Countries
receive a ranking that ranges from “very high human development” to “low human development” based on related
data.


Final Program Evaluation Report: Peace Corps/Namibia                                                           1
In 1999, safety concerns forced Peace Corps to close Volunteer sites in the Caprivi Strip in the
far western region of the country and in the Kavango region along the northern border.
Following a favorable security assessment, these regions are now open and Peace Corps and
Peace Corps Response Volunteers are serving in both areas.

Namibia faces two major human resource issues in its education system: there is a shortage of
teachers, particularly at the secondary level in science and mathematics, and many current
teachers are in need of additional training. Peace Corps/Namibia (hereafter “the post”) works
closely in support of the Ministry of Basic Education, Sports and Culture‟s (MBESC) “Basic
Education Reform” program, which aims to increase the standards of teaching skills and
resources throughout the country.

The post has operated under a Memorandum of Understanding since 1990 with the MBESC,
allowing the Peace Corps to focus on education, including classroom teaching and teacher
training, and to work with projects involving youth and sports. A health program was initiated in
2001, which placed Volunteers in HIV/AIDS education positions. The Small Enterprise and
Entrepreneurship Development (SEED) program was initiated in 2010.

At the time of the evaluation, 116 two-year Volunteers were serving in three project areas:
education, health, and entrepreneurial development. In addition, two Peace Corps response
Volunteers (PCRV) were serving in HIV/AIDS related projects.2 There are two trainee inputs per
year; the most recent input was in March 2012 with 22 trainees. The projects have been designed
to focus on the following:

        Secondary and Upper Primary Education Project (SUPEP)
    Students are taught in English after they reach grade five. To help meet the need for
    teachers, Volunteers work in secondary and upper primary classrooms teaching English,
    science, math, and computer studies in rural schools. Though teaching is the primary
    assignment of education Volunteers, they are also actively engaged in secondary projects
    ranging from upgrading libraries/laboratories to establishing kindergartens.

        Small Enterprise and Entrepreneurship Development
    Volunteers partner with government ministries, community-based organizations and NGOs
    to promote local income generation and business skill development. In 2011, Namibia
    launched the Targeted Intervention Program for Employment and Economic Growth
    (TIPEEG), intended to provide resources for job creation to reduce the nation‟s 51.2
    percent unemployment rate. SEED Volunteers complement TIPEEG in many ways;
    assignments include helping students and out-of-school youth gain business skills,
    increasing the capacity of entrepreneurship teachers, advising local small businesses on
    growth strategies, and providing financial skills to community members.

        Community Health and HIV/AIDS Project (CHHAP)
    In 2004, two existing projects were merged into a larger HIV/AIDS project, Community
    Health and HIV/AIDS. Volunteers with organization development skills and HIV/AIDS
2
 Peace Corps Response provides opportunities for Returned Peace Corps Volunteers to undertake short-term
assignments in various program areas around the world.


Final Program Evaluation Report: Peace Corps/Namibia                                                       2
    programming experience support the newly established Regional AIDS Committee for
    Education. This project aims to increase the organizational capacity of the Committee to
    plan, coordinate, and monitor HIV/AIDS education activities at the regional and school
    levels. Additionally, Volunteers work with the Ministry of Health, Human Services and
    Rehabilitation to provide organizational and developmental assistance, and training support
    to Multi-Purpose Centers (MPCs). MPCs provide varied support for community members
    who are living with AIDS. Volunteers also work at regional youth offices and MPCs to
    promote HIV/AIDS outreach and youth friendly reproductive health services.

        Peace Corps Response
    The post is using skilled PCRVs to pilot new activities within the post‟s existing three
    projects in preparation for transition to traditional two-year Volunteer assignments.

At the time of the evaluation, the post had 32 staff positions, six of which were vacant. The
post‟s fiscal year (FY) 2012 appropriated budget was $2,106,800, which was supplemented by
$1,794,600 of President‟s Emergency Plan for AIDS Relief (PEPFAR) FY 2012 funds.3



                                      EVALUATION RESULTS
PROGRAMMING

The evaluation assessed to what extent the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical needs.
To determine this, we analyzed the following:

         the coordination between the Peace Corps and the host country in determining
         development priorities and Peace Corps program areas;
         whether post is meeting its project objectives;
         counterpart selection and quality of counterpart relationships with Volunteers;
         site development policies and practices.

We determined that the post is building a strong programming foundation. The post has
embraced FITU and continues to align its two longest running projects: the education and health
projects according to the goals of this agency-wide initiative.4 In reviewing the project
objectives, coordination with host country project partners, site selection strategy, and
counterpart selection, we found no significant areas of concern that would necessitate action by
the post. While not a finding, we want to note that the post‟s welcome book has not been updated
since 2008. Since the welcome book is a resource for newly invited applicants to help acquaint
them with their country of service, ensuring that information on the country is current and up to
date will help inform and prepare invitees before their arrival for training.

3
  This amount does not include the salaries, benefits, and related cost of U.S Direct Hires assigned to post and other
costs the agency has determined should be centrally-budgeted.
4
  The FITU strategy is designed to maximize the skills of Volunteers with limited expertise and/or work experience.


Final Program Evaluation Report: Peace Corps/Namibia                                                                 3
Project Objectives. The post‟s project frameworks were changing in conjunction with FITU. In
its 2011 IPBS review, the region had identified the education and health projects as “needs
focus.” At the time of the evaluation fieldwork, the post was working with headquarters to
finalize a project plan for the education project, which underwent a project review in early 2012.
Though the health project underwent a project review in 2010, it continues to work on focusing-
in by limiting its number of partners and clarifying Volunteer assignments. The SEED project
originated in 2010 and its project plan was described by region as being “mostly-focused.” Even
though the project plans and project frameworks were not finalized, 80 percent (16 of 20) of
interviewed Volunteers rated their ability to achieve their projects objectives “moderately well”
or better.

Site Development. The post has developed thorough site development criteria that include
programmatic, host family, and housing elements; however, we identified some issues with post
not following its process and meeting post-established standards, which will be discussed later in
the report. One hundred percent (21 of 21) of interviewed Volunteers were satisfied with their
site placement.

Coordination with Host Country Project Partners. While staff members have good
relationships with the host government ministries with whom they work, the post does not have
structured processes, like PACs, to assure coordination with host country project partners. Peace
Corps‟ country agreement with Namibia was developed in 1990. The program operates under an
implementing technical cooperation agreement between Peace Corps and the National Planning
Commission. The agreement lapsed for three years but has since been renewed. While the post
does not have ministry level MOUs for each project sector, staff members have good
relationships with the ministries with which they work. Partners assist post in identifying
potential Volunteer sites and reviewing Volunteer qualifications for the education project.

Counterpart Selection. In general, Volunteers were placed in situations where they could build
productive counterpart relationships. Twenty of 21 interviewed Volunteers had at least one
counterpart they worked with on a regular basis and most Volunteers reported that their
counterparts were supportive. The post‟s site development process attempts to include as many
representatives from the host organization as possible in the first visit to explain the requirements
and benefits of hosting a Volunteer. Counterpart selection is left to the host organization. In the
Education and Health sectors, counterparts‟ personal time constraints limited their relationships
with Volunteers; therefore, Volunteers often worked with more than one counterpart.

While the post has many strong programming elements in place, the evaluation did uncover
some areas that require management attention.

Key staff members were not sufficiently involved in the Volunteer site development process.

A primary component of successful Peace Corps programs is a thorough and collaborative site
development process. Sites must not only be programmatically viable, but sufficiently safe with
access to necessary support services like communication, transportation and essential health care.
The Peace Corps Manual section (MS) 270.6 requires that each post develop and apply criteria



Final Program Evaluation Report: Peace Corps/Namibia                                               4
for the selection and approval of sites. Among other things, the criteria should address access to
essential health care, the security climate and other support services. Evaluation of the site and
satisfaction of the criteria must be documented. Characteristics and Strategies of a High
Performing Post Indicator 11.5 for “Selecting and Monitoring Trainee and Volunteer sites” also
states, “Site identification must be a collaborative effort, including programming, administrative,
health, and safety factors and participation, and it is the country director‟s duty to lead in and
ensure this collaboration.”

The post has a documented process for site development. Its site evaluation form captures
information about the Volunteer‟s housing and includes basic sanitation information such as
water source, and toilet facilities. The form also includes a health issues section which captures
information such as the nearest medical facility, evidence of endemic disease and health risks to
PCVs. However in our review of the site development documents contained in Volunteer files,
the site evaluation form was not consistent across projects and there was no evidence that sites
were vetted through safety and security and medical staff as required by the post.

The Peace Corps Medical Officers (PCMOs) in Namibia reported that they were not involved in
the site development process and did not review the forms for accuracy or completeness. The
most tenured PCMO reported that in previous years, senior staff held a collaborative discussion
on potential sites, but this had not happened in the last few years. The Safety and Security
Coordinator (SSC), who was new to the post, had not been through the site development process
and could not comment on his unit‟s involvement in site development. The regional Peace Corps
Safety and Security Officer (PCSSO) said that site development and staff turnover have been
longstanding challenges for this post. Our observations were consistent with his June 2008
PCSSO assessment report, which stated that the post needs to involve the PCMO and SSC in site
selection decisions.

Staffing turnover and vacancies in the PCMO, SSC and director of programming and training
(DPT) positions likely contributed to post‟s non-compliance with its own process. The post
should work to include all pertinent players and document decisions to better manage the process
that they have established.

               We recommend:

                1. That the country director ensure that site identification
                   and selection is collaborative and consistent across
                   projects and that involvement from all relevant parties is
                   documented.

Site history files were not organized in a logical, accessible manner to facilitate future
reference and use.

MS 270.6 requires each post to review the site history when developing sites. The PCSSO noted
in his assessment visits dating back to 2007 and 2008 that the site development process needed to
be supported by site histories.




Final Program Evaluation Report: Peace Corps/Namibia                                                 5
The post did not organize site history files by the geographic location of the site. Rather,
information on previous Volunteer sites and experiences was organized by Volunteer and kept
with programming files by the APCD of each project sector. While the agency has no strict
criteria for how to organize site history files, this structure could pose a problem with
institutional memory. It could be very difficult for a staff member with no knowledge of
previously serving Volunteers to utilize site history information to develop sites, or to follow up
if a Volunteer had concerns about a site.

                We recommend:

                 2. That the country director ensure that site history files are
                    easily accessible to staff so that they can be used develop
                    sites or support Volunteers.


The post’s projects did not have PACs.

The post did not have PACs for any of its projects. The Peace Corps Programming and Training
Guidance: Project Design and Evaluation, states that “PAC is the 'voice of key project
stakeholders' that helps the Peace Corps ensure that it develops credible, realistic and responsive
project plans and training programs.” The guidance states that PACs should be established for
each new project and should remain active throughout the life of a project.

       This committee shares responsibility for the design, evaluation, and revision of the
       project. The input of PACs is critical to maximize the sustainability of Volunteer work, to
       confirm project support from the government, and to define and communicate an
       optimum role for Volunteers in collaboration with other organizations addressing the
       issue.

The post recognized the benefit of PACs and had received funding to hold PAC meetings during
calendar year 2012. The associate Peace Corps directors (APCDs) welcomed the idea of
developing PACs for each of their projects. A PAC could be a forum to provide strategic
direction for the project and help ensure that all stakeholders are in sync with the expectations for
Peace Corps‟ projects as they focus project efforts and build strategic partnerships.

                We recommend:

                 3. That the post develop Project Advisory Committees for
                    each of its projects.


TRAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such factors as:

       training adequacy;


Final Program Evaluation Report: Peace Corps/Namibia                                                  6
       planning and development of the training life cycle;
       staffing and related budget.

The evaluation concluded that the training program in Namibia is generally effective at helping
Volunteers prepare for service and be productive at their sites. The post uses a mixed training
model; classes are held at a training center, but trainees live with host families. While the official
language of Namibia is English, the post teaches eight local languages during PST. Though there
are areas for improvement, especially technical training, the post has already started to make
changes and has a solid foundation to build upon, especially as it incorporates and benefits from
the agency‟s FITU efforts.

Thirty percent of interviewed Volunteers (six of 20) found cross-cultural training to be
inadequate to prepare them for service. Volunteers reported that cross-cultural training focused
on cultures that were north of the capital. Volunteers acknowledged that it was difficult to teach
multiple cultures to one group and said that much of the real cultural learning was done in their
language classes. Post managers also recognized the weaknesses in cross-cultural training and
have encouraged language and cultural facilitators (LCFs) to facilitate more of the cross-cultural
learning with language sessions.

Though the post does not have many of PCRVs, OIG received feedback in interviews that a
more robust training is needed in the areas of language and cross-cultural practices to facilitate
community integration, an important part of the model on which Volunteer safety is based.
Because the official language of Namibia is English, there is no language requirement for
PCRVs. At the time of evaluation field work, the training program for PCRVs was a day and a
half orientation program in which the PCRV met individually with different staff members. Post
managers recognized this was a short amount of time to prepare PCRVs for service and were
exploring a longer orientation program; however, staff raised concerns that a minimum number
of PCRVs would be necessary before it was feasible to hold a two-week orientation.

Overall, we found that Volunteers were satisfied with the language, safety and security, and
medical/health portions of PST and mid-service training (MST). Volunteers were less satisfied
with the effectiveness of IST (Reconnect) and said that it occurred too soon after swearing-in and
the content was repetitive of PST. The DPT explained that the timing of Reconnect was based on
the school calendar schedule. The following tables summarize Volunteers‟ perceptions on the
effectiveness of their training.

                    Table 1. Volunteer Perceptions of PST Training Effectiveness
                              Area                 Percent of          Average
                                                 Volunteers Who        Rating
                                                 Rated Training
                                                   Favorably)
                    Language                          80%                 3.5
                    Cross-Cultural                    70%                 3.2
                    Safety and Security               90%                 3.6
                    Medical                           95%                 4.0
                    Technical                         40%                 2.7
                    IST (Reconnect)                   76%                 3.1


Final Program Evaluation Report: Peace Corps/Namibia                                                7
                     MST                                     83%                   3.3
                Source: OIG Interviews.



Education and Health Volunteers reported that technical training was not effective.

MS 201 “Eligibility and Standards for Peace Corps Volunteer Service” states that a trainee must
demonstrate technical competence, which is defined as “proficiency in the technical skills
needed to carry out the assignment” by the end of training.

Twelve of 20 interviewed Volunteers (60 percent), all serving in the SUPEP or CHAAP projects,
rated the effectiveness of technical training below average. Longer serving Volunteers in these
sectors reported that technical training did not prepare them for their assignments. Education
Volunteers reported that they were expected to “figure it out” on their own and suggested that
good examples of the required preparation, administrative and resource files would have been
helpful. Comments they made regarding the technical training included the following:
       “I had done tutoring before I came here but never had formal lesson planning or [worked
       with] really large groups of kids. A lot of the technical training was throwing us into a
       real situation and having us figure it out on our own. I think it would have been more
       effective to have all of us write a lesson plan - and to then…grade them. It seemed that
       they wanted us to figure it out on our own. I don't think that 90 percent of the training
       should have been focused on this when most of us were not formal teachers.”

       “The most valuable thing I did in tech training was to go to a Namibian school.
       Observing teachers in an Namibian school - understanding better what is a syllabus, how
       do they set up files, how do you set up exams, how do you mark…The other training was
       not put in any context. I would have put that at the beginning of training so that
       everything else can be put in context. They will tell you that all schools are different…
       but the Ministry is one - and it‟s better to be over prepared…otherwise it looks
       unprofessional.”

A common theme among education Volunteers was that technical training did not give them
practical skills for the classroom. Recognizing this, the post has budgeted for and intends to
implement a practicum “model school” component for the education project‟s technical training.

Health Volunteers reported that technical training provided only general information about HIV.
Comments they made regarding the technical training included the following:

       “It was vague to be honest - it was basically people coming in to talk to us about HIV.
       We didn't need the history of HIV or what it is - we needed more hands on things rather
       than the overall generalization of HIV in Namibia”

       “The hard part was that the APCD just came in. I don't think she had planned it - it was
       someone else who had dropped the ball. We had people not show up - we had the same
       presentation given 10 times. I don't think we gained any knowledge. I was glad that I was
       going into something that I was familiar with. It was the worst thing that could have
       happened. ”




Final Program Evaluation Report: Peace Corps/Namibia                                               8
Staff turnover may have contributed to insufficient health technical training. The Health APCD
had just started employment with Peace Corps prior to the PST which already had a set
curriculum. Training has since been significantly revamped. The PST End of Training report
suggested that the group of Health Volunteers who swore-in in May 2012, and received the
modified training, were more satisfied with technical training. We interviewed some Volunteers
in this group and they were generally positive about technical training, but had not been in
service long enough to comment on its ability to prepare them for their job assignments.

Volunteers serving in the SEED project all gave favorable marks to technical training and
appreciated the hands-on component where they were paired with an organization and given an
opportunity to “try-out” what they had learned during PST classroom sessions.

Without adequate preparation, Volunteers will not be prepared for their assignments, are less
effective and satisfied with their work, and will often require more support from staff. While post
is proceeding in the right direction in its improvements to technical training, continued attention
is required. And, as mentioned in the previous section on programming, finalization of the
project plans and adoption of forthcoming FITU training modules could help focus technical
training.

               We recommend:

                4. That the country director and programming and training
                   staff assess the technical training program and make
                   adjustments when necessary to improve the effectiveness
                   of technical training for the education and health sectors.


Volunteers reported local language proficiency as a barrier to community integration.

Even though 16 of 20 interviewed Volunteers thought that their local language training was
moderately effective or better, 33 percent (7 of 21) of interviewed Volunteers reported that poor
local language proficiency was a barrier to community integration. The official language of
Namibia is English, which is often the lingua franca given the large number of spoken languages.
However, local languages are used in areas where Volunteers are placed, and the post teaches up
to eight languages during PST.

The post has no required corrective actions if a Volunteer does not meet the post‟s target level of
“Intermediate Low” on the Language Proficiency Index (LPI) upon swearing-in. Nor does the
post require LPI retesting at any other point in service to determine if a Volunteer‟s proficiency
has improved. Previously, the post had conditionally sworn-in Volunteers and followed-up on
their progress, but because the post had no consequences for failing to meet a proficiency
standard at the end of PST, it removed the additional assessment requirements. The post does
suggest and provide funding for tutors, but according to staff, this support is rarely used by
Volunteers. Training staff also reported that they are not always able to find PST host families
for all of the languages being taught and that the language manuals are outdated and are not user
friendly.



Final Program Evaluation Report: Peace Corps/Namibia                                              9
The Peace Corps Act requires that “no person shall be assigned to duty as a volunteer… in any
foreign country or area unless at the time of such assignment he possesses such reasonable
proficiency as his assignment requires in speaking the language of the country or area to which
he is assigned.”

Proficiency in local languages is emphasized for community integration and for Volunteer safety
and security. Real language skills allow one to recognize verbal and cultural warning signs and
potentially avoid risky situations. A lack of language skills may expose Volunteers to security
risks.

We recognize that Namibia‟s language situation is complex and the ability to function in a local
language may be more important in some communities than in others. Multiple languages might
be spoken in a singular community and the language that Volunteers learn aligns them with a
particular group. However, the post should consider how it can make better use of trainee time
and training staff resources and revise PST sessions as necessary so that Volunteers who do not
require local language skills can focus their PST learning objectives on other subjects.

               We recommend:

               5. That post examine the local language training and testing
                  program and make adjustments to ensure that Volunteers
                  placed in sites where local language skills are needed for
                  effective integration receive sufficient training to meet
                  minimal proficiency requirements.


VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has post provided adequate
support and oversight to Volunteers?” To determine this, we assessed numerous factors,
including staff-Volunteer communications; project and status report feedback; medical support;
safety and security support including staff visits to Volunteer work sites, the Emergency Action
Plan (EAP), and the handling of crime incidents; and the adequacy of the Volunteer settling-in
and living allowances.

In general, we determined through our evaluation that the post has developed a solid Volunteer
support structure. In reviewing staff-Volunteer communications, Volunteer performance report
feedback, coordination with the U.S. Embassy, the medical evacuation plan, housing checks, and
Volunteer allowances, we found no significant areas of concern that would necessitate action by
the post.

Staff-Volunteer Communications. The evaluation determined that there is good, open
communication between Volunteers and staff. Staff regularly seeks Volunteer feedback and is
generally aware of Volunteer needs and concerns. Some of the feedback mechanisms used to
gather Volunteer input include training evaluations, personal communications and the Volunteer



Final Program Evaluation Report: Peace Corps/Namibia                                           10
Advisory Committee (VAC). Staff regularly communicates with Volunteers through newsletters
and personal interactions through text messages, phone calls, and email.

Volunteer Performance Report Feedback. Staff is providing regular feedback to Volunteers‟
performance reports. All Volunteers in our sample who had submitted reports had received
feedback. Volunteers considered staff‟s VRF feedback helpful, with 100 percent (16 of 16) of the
interviewed Volunteers who answered our question rating the feedback quality as average or
better (3.9 average). Many Volunteers stated that feedback had improved and that their reports
were being thoughtfully read. The DPT commended the agency‟s Volunteer Reporting Tool for
standardizing indicators of performance.5 One program manager reported that the quality of
Volunteer reporting has improved tremendously after Volunteers received the FITU training
module on how to evaluate their projects.

Emergency Preparedness. Although there are some elements of emergency preparedness that
require attention and will be discussed later in this section, the post demonstrated that it has
taken several steps to prepare for emergencies. Staff members, including the current CD, have
developed relationships with security personnel at the U.S. Embassy. Safety and security criteria
are incorporated into site development to ensure that Volunteers are not placed in homes and
communities that would expose them to an unnecessary level of risk. The post has developed and
continues to refine a medical evacuation plan that follows the agency‟s recommended format,
and the post uses a duty officer system.

Housing Checks. Volunteers‟ houses were generally in compliance with items on the post‟s
housing checklist. The post‟s housing criteria include elements related to the condition of the
house and the surrounding neighborhood. A review of Volunteers‟ houses and the post‟s housing
check records verified that housing checks were usually completed and documented accurately.

Volunteer Allowances. Most interviewed Volunteers were satisfied with the adequacy and
timeliness of settling-in and living allowances and reimbursements. The director of management
and operations (DMO) reported that the living allowance survey is completed every year, and a
settling-in allowance survey is completed with each group. Since the Volunteer In-Country
Allowance (VICA) payment system was implemented, there have been very few challenges with
reimbursements.6

The strength of the post‟s Volunteer support systems is reflected in the aforementioned results as
well as Volunteers‟ ratings of staff support, which are as follows:




5
  The Volunteer Reporting Tool is the primary reporting mechanism Volunteers have used to capture project
activities and outcomes and other aspects of their service.
6
  The VICA application allows Posts to order monthly allowances, special allowances, and reimbursements for
Volunteers.


Final Program Evaluation Report: Peace Corps/Namibia                                                          11
                     Table 2. Responses on Perceptions of Volunteer Support7
                               Area             Percent of Volunteers         Average
                                                 Who Rated Support            Rating
                                                     Favorably)
                      Leadership                        100%                     4.4
                      Programming                        92%                     3.9
                      Training                           95%                     3.8
                      Safety and Security                75%                     3.0
                      Medical                           100%                     4.0
                      Admin                             100%                     4.3
                     Source: OIG Interviews.



While the post has systems for Volunteer support in place, we did identify a few areas in need of
improvement which we discuss below. As noted in the table above, the lowest support score
among post staff was for the area of safety and security. Over half of interviewed Volunteers (12
of 21) had been the victim of a crime. Crimes ranged from theft to robbery. Ten of the twelve
interviewed Volunteers reported the crime to the Peace Corps; however, only 78 percent of them
rated its handling by the Peace Corps as favorable, with staff responsiveness being Volunteers‟
primary concern.8 The SSC who the Volunteers rated had left the Peace Corps by the time of the
evaluation fieldwork. Similarly, 2011 AVS data shows that Namibia Volunteers‟ satisfaction
with safety and security support falls below those for the Africa region overall .

Headquarters staff raised the safety and security environment in Namibia as a concern for
Volunteers serving in the country. They noted that Namibia is on the Africa region‟s serious
crime index and the region is working with the Office of Safety and Security to do a more
extensive analysis of the crimes that have occurred in country to identify trends and contributing
factors. While the PCSSO had recently been to post to train the incoming SSC, a full assessment
of the post has not been completed since 2009. The full assessment is scheduled for early
calendar year 2013. We are recommending in findings discussed below that the PCSSO help the
post address several additional aspects of post safety and security during that visit.

The availability of medical and health resources were not fully assessed for Volunteer sites.

While there is considerable variation in what each Peace Corps country can offer from a health
resources standpoint, PCMOs rely on three primary components to assess the availability of
health resources where Volunteers live and work: the site development process, medical staff‟s
awareness of local medical resources, and medical site visits. Even though Volunteers‟ support
scores for PCMOs were high and Volunteers were satisfied with the health care they received,
we found some deficiencies with the systems intended to ensure that medical and health factors
are adequately considered in Volunteer sites.

7
  Leadership was derived from the CD score; Programming was derived by averaging the DPT, APCD, and PA
scores; Training was derived from the Training Manager score; Safety and Security was derived from the SSC score
for the former SSC; Medical was derived from the collective PCMO score; Administrative was derived from the
DMO score.
8
  Most Volunteers who had been victims of a crime rated the SSC‟s handling of the incident. That SSC was no
longer working for Peace Corps at the time of evaluation fieldwork.


Final Program Evaluation Report: Peace Corps/Namibia                                                         12
As discussed in a prior section of this report, the medical unit was not sufficiently involved in the
site development process. The PCMO reported that the last PCMO site visit was conducted in
2011 and that the medical unit, per agency guidance, had not been able to conduct a medical site
visit to every Volunteer during his or her service because of staffing constraints. In all regions
that Volunteers are placed, PCMOs work with local health care providers to make referrals for
Volunteer care. Post medical staff said that the assessment of local health care providers and
resources outside of the capital is done as part of the medical site visit process.

The post‟s health unit staffing has changed within the last two years. The post saw the agency‟s
longest serving PCMO, who had been with the agency since the post‟s inception, retire in 2011.
As a result, the post was staffed with one full-time Registered Nurse PCMO and various
temporary duty staff until May 2012 when a second full-time PCMO came on board.

 Characteristics and Strategies of a High Performance Post section 10 discusses the importance
of PCMO site visits to Volunteers:

       PCMOs should be conducting site visits. If they do not, their own knowledge of the
       Volunteers‟ situations is incomplete, and they may not be reaching certain Volunteers
       who do not come in. In addition, they have an important role to play in site selection and
       development and in knowing and evaluating local health conditions and local and
       regional medical resources. These are important functions to carry out; yet some PCMOs
       hesitate to leave the office for fear that emergencies will arise while they are gone. This is
       all the more reason for having a smoothly functioning backup system. PCMOs need to
       get into the field, Volunteers need to see them in the field, and CDs need to help make
       this happen.

MS 261.3.5 discusses the responsibility of PCMOs to visit Volunteers at their site. While the
number or frequency of site visits is not specified, according to OMS Quality Assurance, the
expectation is that Volunteers will be visited by a medical staff member annually. The post‟s
Volunteer handbook says that PCMOs will conduct regularly scheduled visits to Volunteers, but
the frequency of site visits is not specified.

The lack of specific guidance to all posts on the frequency of PCMO site visits creates an
environment where posts do not sufficiently budget, plan for, and prioritize this important
activity. The potential negative effect of infrequently visited Volunteers is that PCMOs do not
have a comprehensive understanding of Volunteer site conditions, the public health issues
specific to that locale, or the quality of and access to medical facilities in the area.

Even though the previous post medical team knew the country well and had been at the post a
long time, situations change and understanding available resources is necessary.

                We recommend:

                 6.      That the Office of Volunteer Support clarify the
                         requirement for Peace Corps medical officer visits to
                         Volunteer sites and establish policy and procedures to
                         guide posts in this activity.



Final Program Evaluation Report: Peace Corps/Namibia                                                    13
                  7.     That the country director ensure Peace Corps medical
                         officer site visits occur per agency guidance.

Many Volunteers’ Site Locator Forms were missing important information.

The post uses Site Locator Forms (SLFs) that require Volunteers to provide important
information to assist staff with locating a Volunteer in a medical or non-medical emergency.

The agency‟s standard operating procedures for the EAP includes a template site locator form.
Additionally, Characteristics and Strategies of a High Performance Post section 11.8
encourages posts to maintain emergency site locator forms and update them regularly. Medical
Technical Guideline (TG) 380, section 5.4 also discusses the importance of the Volunteer
emergency SLF to help ensure quick access to Volunteers in a medical emergency.

As part of the evaluation, OIG reviewed 22 SLFs for the Volunteers in the interview sample.9
This review identified a number of issues with SLFs:

        73 percent (16 of 22 forms) did not include information on local medical facilities.
        53 percent (8 of 15) Volunteers did not provide adequate directions and maps to their
        sites.
        36 percent (8 of 22 forms) did not include information on the local police post.
        27 percent (6 of 22 forms) did not include non-cellular telephone contact information.

In our review of SLFs we found there were multiple SLF formats in use, with differing types of
information requested. Sixteen of the forms we reviewed that did not contain information on
local medical facilities did not have a section to capture it; therefore Volunteers would not have
known to include it. Inaccuracies on the SLFs were not detected by staff because they do not
review the forms for completeness and accuracy after submission.

                 We recommend:


                  8. That during the full security assessment of the post the
                     Peace Corps safety and security officer provide input to
                     post to determine which elements are critical elements of
                     the Volunteer site locator form.

                  9. That the country director ensure all critical information is
                     being collected on the post’s site locator form.

                  10. That the country director require post staff to review the
                      accuracy and completeness of site locator forms.



9
  Our sample of selected Volunteers included 21 Volunteers. We reviewed forms of additional Volunteers who
requested interviews with us as well.


Final Program Evaluation Report: Peace Corps/Namibia                                                         14
Some Volunteers were unaware of their consolidation points and did not have current EAPs.

According to the agency‟s primary safety and security policy, MS 270, the agency‟s safety and
security program is based on several factors, including “the necessity of having plans in place to
respond promptly and effectively to threats or events.” MS 270.8.1 states that “Each post must
develop and maintain a detailed EAP that addresses the most likely emergency situations that
would impact Peace Corps personnel and operations.”

The post‟s EAP addresses the most likely emergency situations that would impact Peace Corps
personnel and operations and includes Volunteer warden information, Volunteer contact
information, and an emergency phone tree. However, only four of 13 Volunteers, could produce
a copy of their EAP.10 Volunteers reported that they had received their EAP during PST and that
they had not received updates to it. Additionally, the embassy RSO could not produce a copy of
Peace Corps‟ EAP when asked.

Additionally, of the 21 Volunteers interviewed, eight (38 percent) could not correctly identify
their consolidation point. Some Volunteers did not know the location, some misidentified it, and
some were confused and thought their consolidation point had been changed.

The deficiencies in the post‟s emergency preparedness systems raise concerns about staff and
Volunteers‟ ability to quickly and effectively respond to an emergency. The evaluation revealed
that important safety and security documents, like SLFs and EAPs are not consistently reviewed
and distributed to people who may be required to respond to an emergency. Although the PCSSO
has identified many of these same issues in previous reports and provided guidance to former
SSCs on the execution of the Peace Corps‟ systems and processes, the post needs continued
safety and security oversight and monitoring to ensure deficiencies are addressed and the post‟s
safety and security policies and procedures are appropriate for the environment.


                We recommend:

                  11. That the country director ensure that all Volunteers know
                      the location of their consolidation point.

                  12. That the Peace Corps safety and security officer review
                      emergency action planning and identify any deficiencies
                      during the full security assessment of post.


Volunteers reported that hitchhiking was their primary mode of transportation.

The lack of acceptable, safe transportation poses a safety risk for Volunteers. The country does
not have a licensed public transportation system. An informal system exists where drivers of

10
  Only Volunteers who were interviewed at their homes were asked to produce the EAP. 17 Volunteers were
interviewed at their homes.



Final Program Evaluation Report: Peace Corps/Namibia                                                      15
privately or company-owned cars and mini busses stop at designated areas to transport willing
passengers for a fee. This means of securing a ride is used by both the local population and
Volunteers. However, some Volunteers prefer to forego this approach in favor of hitching a ride
from passersby for personal convenience.

We found that the post created confusion regarding Volunteer hitchhiking by advising against it
in the Volunteer handbook but inferring in other forums and discussions that it may be used. The
post‟s Volunteer Handbook‟s transportation policy, 7.16 states:

       Volunteers should never get into a vehicle where alcohol is being consumed, or where the driver
       or passengers have obviously been drinking. Female Volunteers should also avoid vehicles where
       there are no women passengers or where there is overcrowding or unruly passengers. Poorly
       maintained vehicles or vehicles with obvious safety problems (such as poor tires) should be
       avoided. If you are in doubt, trust your instincts and look for another form of transportation. If it is
       late, wait until the next day. There is nothing important enough to justify getting into an unsafe
       vehicle.

       Volunteers are also advised in the strongest terms not to hitchhike [italics added]. Most
       Volunteers have limited transportation options available to them at site; therefore advanced
       planning of any travel is important. Often Volunteers are able to catch rides from members of their
       community to larger towns.

The PCSSO‟s November 2009 report recommended that the post clearly communicate its policy
regarding hitchhiking to Volunteers:
       The issue of hitchhiking as an acceptable transportation option continues to pose a challenge for
       PC/Namibia. The PCSSO agrees with staff‟s consensus that hitching a ride from community members well
       known to the Volunteer is a generally accepted practice of PCVs worldwide. It is the solicitation of rides
       from little-known persons and total strangers that is of concern, as it renders Volunteers significantly more
       vulnerable to crime victimization. In addressing this issue with the Volunteers, the PCSSO suggests that
       staff place more emphasis on proper trip planning and scheduling as opposed to engaging in impromptu
       travel.

The issue has continued to warrant discussion among staff and Volunteers in the years since. In
the VAC meeting minutes from August 2011 the issue of transportation was raised:

       …Q: Will Peace Corps acknowledge that hitchhiking is an acceptable/legitimate means of travel
       in Namibia and typically is safer than “public transportation?” Can we further have an assurance
       that hitchhiking is not an offense punishable by Administrative Separation?

        A: The travel policy does not outright forbid hitchhiking. As such, hitchhiking alone will not
       result in Admin Sep [eration]. With this in mind, the feeling that hitchhiking is safer is perhaps
       anecdotal, and no available hard data exist on this topic. Serious or repeated violations of the
       transportation or whereabouts policies can still result, however in Admin. Sep.

       Q: In relation to the above point, can Peace Corps provide us with a definition of and means of
       ascertaining legitimate, licensed Public Transportation? There is confusion amongst Volunteers
       regarding what exactly constitutes Public Transportation in Namibia.

       A: Public transportation is licensed. There is a round sticker on the left side of the vehicle.

       In response to Volunteers who express concerns about the enforcement of public transportation
       regulations, it‟s a complicated issue. The licensing should be checked at road blocks.


Final Program Evaluation Report: Peace Corps/Namibia                                                              16
       Again, Volunteers should use their own judgment to decide if a mode of transportation is safe. If a
       Volunteer feels like the transport is unsafe, they can always stay the night and Peace Corps will
       pay for lodging. Clara would like to alert the Volunteers that there have been 5 Peace Corps deaths
       in Namibia since its inception and all have been in situations where the Volunteer had been
       hitchhiking….

While the agency does not have a world-wide policy that restricts hitchhiking, it is discouraged
in post‟s transportation policies where it is referenced. Comments from Volunteers reflect
confusion around the post‟s policy and the extent to which hitchhiking is used the primary means
of transportation.

       “…we all hitchhike because that is what you do to get around in Namibia. It‟s safer than taking public
       transport…We are not sure what the policy on that is because it keeps changing. I don't understand the
       policy - I only understand the reality…”

       “Everyone hitch hikes; I hitch hike. Peace Corps is in a bind… Even though they say no hitchhiking - a
       resource Volunteer will pull you aside and say - here's how to do it safety”

       “If you look from an American perspective, we hitchhike everywhere. I have been in combies multiple
       times when they have had to have a passenger drive it because the driver is falling asleep at the wheel… It
       ends up being that you feel much safer in a private vehicle hiking. I have felt unsafe in that situation -
       maybe you'll get in a car where the man is aggressive in terms of sexually harassing you. You just ignore it.
       There are no ways to improve the situation. The roads are safe and good - but you don't have a way to
       travel on them. I don't think there is much we can do. How can we improve it? They know - and they put on
       paper "you cannot hitchhike" and you cannot travel in the back of a bakkie [a bed of a pickup truck] - but
       you have to. The only way to get into this village is to do that. You are told you can't do this - even though
       they know we are doing it - there is nothing they can do.”

       “I will choose hitchhiking over taking a combie any day. They are packed full of people and they drive
       crazy. They are way crazier than anyone I've ever caught a ride with. It‟s more dangerous than hitchhiking.
       Peace Corps's position on hitchhiking is „don't ask don't tell‟…”

       “Transportation is so unorganized here. the transportation that pc would like us to take - you have to wait
       for over an hour because they are waiting to find other passengers, so it‟s better for them to get somewhere
       as quick as possible… Usually the [private vehicles] who will stop are more willing to help and safer.
       Peace Corps doesn't want us to travel like that - but if we are found out, it‟s not means for administrative
       separation…”

The CD reported that the transportation policy has not changed since he assumed responsibilities
in 2009. He acknowledged that there had been a dialogue between post and the office of safety
and security and the VAC and also acknowledged the reality that public transportation is very
limited and that Volunteers have expressed concerns about the safety of public transportation
options when available. He also acknowledged that if the post was to take a step in being more
restrictive in its transportation policy, Volunteers would not comply with it. He felt strongly that
if the post were to establish a policy, they needed to enforce it.




Final Program Evaluation Report: Peace Corps/Namibia                                                             17
               We recommend:

                13. That the post review its Volunteer transportation policy,
                    and make adjustments as necessary to clearly articulate to
                    Volunteers what forms of transportation are authorized
                    for their use.


MANAGEMENT CONTROLS

Another key objective of our country program evaluation is to assess the extent to which the
post‟s resources and agency support are effectively aligned with the post's mission and agency
priorities. To address these questions, we assess a number of factors, including staffing; staff
development; office work environment; collecting and reporting performance data; and the
post‟s strategic planning and budgeting.

In reviewing the post‟s work environment, Volunteer performance reporting, the post‟s
relationship with the U.S. Embassy, and the post‟s relationship with headquarters, we found no
significant areas of concern that would necessitate action by the post.

The evaluation found a generally well-managed post. The U.S. direct hire (USDH) staff at post
are highly regarded by headquarters staff and Volunteers feel well supported by all staff as
evidenced by Volunteer support scores. While there had been challenges with the management of
post operations and morale in the past, we found that the morale of the staff was generally
positive. The DPT role and responsibilities were re-organized as of August 2011. Previously, the
DPT had a dual role of being an APCD for the Health project as well as to direct programming
and training which contributed to confusion on roles and strained relationships between staff.
Following the prior DPT‟s departure, the post was without a DPT for approximately one year.
The current DPT has been warmly received and commended by all programming and training
staff for his guidance and bringing the team together.

Office Work Environment. Staff members reported that morale has improved over the last two
years. The current country director (CD), who started in February 2010, has added stability and
worked to create an atmosphere where the staff is able to address issues in all-staff or senior staff
meetings. Staff reported that they are appreciative of the supervision and guidance provided by
the USDH employees: the CD, director of programming and training (DPT), and DMO.

Staff Development. We found that in the sample of performance appraisals we reviewed all
were complete and feedback was generally thorough, though four of the 10 were not signed and
filed appropriately. In an effort to provide staff development opportunities in a limited resource
environment, the CD surveyed staff on their personal development goals and then researched
how they could self-develop. The post purchased various books and discussion groups were held.

Performance Data. Volunteers are submitting their Volunteer reporting forms (VRFs), and most
of the interviewed Volunteers reported that the information they provide is reliable. However, as
noted below, the post does not produce a comprehensive annual report for stakeholders.



Final Program Evaluation Report: Peace Corps/Namibia                                               18
Relationship with the Embassy. The post has effective working relationships with the U.S.
Embassy in Windhoek. Post staff coordinate with embassy and consular staff on programmatic
and administrative issues as needed. Although the post faced some difficulty in acquiring a work
permit for a third country national PCMO, according to the embassy, this is not uncommon for
U.S. agencies in Namibia.

The post had not produced a comprehensive annual report for stakeholders.

The agency‟s FY 2011 Performance and Accountability Report (PAR) sets forth annual results
against the agency‟s performance plan. Performance Goal 1.1.1, to “ensure the effectiveness of
in-country programs,” is supported by Performance Indicator 1.1.1b which measures whether an
annual program update describing the achievements of all Peace Corps projects at a post is
provided to host country agency sponsors and partners. The rationale for the indicator is to
collaborate with partners and increase the agency‟s accountability to the host country. The
agency‟s target for this indicator is for 85 percent of all posts to “provide annual progress reports
to their host country agency sponsors and partners.”11

The post has not produced a comprehensive annual report for all stakeholders. The DPT reported
that it is in development and the post intends to present data by region to make it more useful and
compelling for stakeholders. Only seventy-three percent of Africa region posts provided reports;
therefore the Africa region fell short of the 85 percent PAR target. While the post currently has
positive relationships with host country partners, an annual report could be one way to formalize
collaboration and accountability.

                  We recommend:

                   14. That the post develop a comprehensive annual report for
                       stakeholders that addresses all projects at post as required
                       by the Performance and Accountability Report

PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF (PEPFAR)

Another objective of this post evaluation is to answer the question “is the post able to adequately
administer the President‟s Emergency Plan for AIDS Relief (PEPFAR) program, support
Volunteers, and meet its PEPFAR objectives?” To answer this question, we evaluate:

         Whether the post is implementing its PEPFAR objectives as laid out in the annual
         implementation plan.
         Relationships between the post and coordinating partners.
         Whether Volunteers are fulfilling HIV/AIDS-related assignments and handling related
         challenges.



11
  For FY 2011, the agency reported that it met its overall target for Indicator 1.1.1b with 87 percent of posts
providing the annual report to stakeholders.


Final Program Evaluation Report: Peace Corps/Namibia                                                              19
In reviewing PEPFAR objectives, Volunteer assignments and coordination with other USG
entities, we found no significant areas of concern that would necessitate action by the post.

PEPFAR provides funding to Peace Corps posts to help expand and enhance their response to the
HIV/AIDS epidemic. The Peace Corps‟ Office of Global Health and HIV (OGHH) has the
responsibility for agency-level policy guidance, overall leadership, and general supervision,
direction, and coordination of Peace Corps‟ domestic and foreign HIV/AIDS activities. To obtain
PEPFAR funding, OGHH requires posts to submit an implementation plan that details the
proposed activities that posts will implement with PEPFAR funds. This funding is provided in
addition to post‟s appropriated funds.

The post has received PEPFAR funding since FY 2004. PEPFAR supports a large percentage of
post‟s activities and operations. Parties we talked to reported that Namibia is transitioning to
country-owned strategies and national programs and is on the trajectory for major cuts from
PEPFAR overall as a country. The parties we discussed this with do not believe that this will
have impacts to the post within the next three years, but that there will be shifts away from using
PEPFAR funding for direct service delivery (such as antiretroviral treatment, and operational
costs). Assistance from the United States will shift towards more of a technical assistance model.

In reviewing Volunteer assignments, training, and coordination with other U.S. government
entities, we found no significant areas of concern that would necessitate action by the post.
PEPFAR is well-integrated into programming and Volunteer activities. Nineteen of the 20
Volunteers interviewed have been involved in HIV/AIDS related activities. The Volunteers‟
HIV/AIDS-related activities run the gamut of PEPFAR focus areas, although work promoting
prevention was the most prevalent. The post has a good relationship with the U.S. Mission
PEPFAR coordinator, who reported that she has worked with the Peace Corps at multiple levels
within the post. The coordinator sees the Peace Corps as a unique organization because of its
Volunteers work with niche areas of HIV response at the local level and has found that the
Volunteers‟ work is complementary to the work of other U.S. government agencies.

The OGHH chief of management and operations (CMO) visited the post in April 2012 to review
its budget and look at ways to address substantial carryover funds from prior years. The CMO
reported that the post is now financially sound in regard to PEPFAR and that they had a stellar
DMO who would be timing out soon. The CMO also reported that the new DPT structure has
been good for the post and that it was very beneficial to collaboratively work with the DPT, the
programming and training team, the HIV/AIDS coordinator and the Administration unit.




Final Program Evaluation Report: Peace Corps/Namibia                                            20
                OBJECTIVE, SCOPE, AND METHODOLOGY
The purpose of OIG is to prevent and detect fraud, waste, abuse, and mismanagement and to
promote economy, effectiveness, and efficiency in government. In February 1989, the Peace
Corps OIG was established under the Inspector General Act of 1978 and is an independent entity
within the Peace Corps. The Inspector General (IG) is under the general supervision of the
Peace Corps Director and reports both to the Director and Congress.

The Evaluation Unit within the Peace Corps OIG provides senior management with independent
evaluations of all management and operations of the Peace Corps, including overseas posts and
domestic offices. OIG evaluators identify best practices and recommend program improvements
to comply with Peace Corps policies.

OIG Evaluation Unit announced its intent to conduct an evaluation of the post on April 5, 2012.
For post evaluations, we use the following researchable questions to guide our work:

       To what extent has post developed and implemented programs to increase host country
       communities‟ capacity?
       Does training prepare Volunteers for Peace Corps service?
       Has the post provided adequate support and oversight to Volunteers?
       Are post resources and agency support effectively aligned with the post‟s mission and
       agency priorities?
       Is the post able to adequately administer the PEPFAR program, support Volunteers, and
       meet its PEPFAR objectives?

The evaluator conducted the preliminary research portion of the evaluation April 6 - May 23,
2012. This research included a review of agency documents provided by headquarters and post
staff; interviews with management staff representing the Africa region, OGHH, Office of
Volunteer Support, and the Office of Programming and Training Support; and inquiries to the
Office of Safety and Security, Office of Volunteer Recruitment and Selection (VRS), Office of
Intergovernmental Affairs and Partnerships, and the Office of Private Sector Initiatives. After
completing fieldwork, an additional interview was conducted with staff from the Office of Safety
and Security.

In-country fieldwork occurred from May 29 - June 15, 2012 and included interviews with post
senior staff in charge of programming, training, and support; the U.S. Ambassador; the embassy
regional security officer; the embassy PEPFAR coordinator; and host country government
ministry officials. In addition, we interviewed a stratified judgmental sample of 21 Volunteers
(18 percent of Volunteers serving at the time of our visit) based on their length of service, site
location, project focus, gender, age, and ethnicity. An additional request for an interview from a
Volunteer not in the sample was accommodated; therefore we interviewed 22 Volunteers.
Denominator numbers for Volunteers are based on Volunteers who responded to our questions.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency (CIGIE). The evidence,


Final Program Evaluation Report: Peace Corps/Namibia                                            21
findings, and recommendations provided in this report have been reviewed by agency
stakeholders affected by this review.




Final Program Evaluation Report: Peace Corps/Namibia                                 22
                              INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with 22 Volunteers, 15 staff members
in-country, and 15 representatives from Peace Corps headquarters in Washington D.C., the U.S.
Embassy in Namibia, and key ministry officials. Volunteer interviews were conducted using a
standardized interview questionnaire, and Volunteers were asked to rate many items on a five-
point scale (1 = not effective, 3 = average effective, 5 = very effective). The analysis of these
ratings provided a quantitative supplement to Volunteers‟ comments, which were also analyzed.
For the purposes of the data analysis, Volunteer ratings of “3” and above are considered
favorable. In addition, 18 out of 22 Volunteer interviews occurred at the Volunteers‟ homes, and
we inspected 17 of these homes using post-defined site selection criteria. The period of review
for a post evaluation is one full Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire Volunteer
population in Namibia; the Volunteer sample was selected to reflect these demographics.

                              Table 3. Volunteer Demographic Data
                                                                    Percentage of
                                Project
                                                                     Volunteers
            SUPEP                                                       52%
            CHHAP                                                       34%
            SEED                                                        13%
            PCRV                                                         2%
                                                                    Percentage of
                               Gender
                                                                     Volunteers
            Female                                                      65%
            Male                                                        35%
                                                                    Percentage of
                                  Age
                                                                     Volunteers
            25 or younger                                               50%
            26-29                                                       35%
            30-49                                                        8%
            50 and over                                                  7%
           Source: Volunteer roster provided by post in April 2012.
           Note: Percentages may not total 100 percent due to rounding.

At the time of our field visit, The post had 32 staff positions, six of which were vacant. The post
also employs temporary staff/contractors to assist with PST. Given the time of our visit, these
positions were not staffed. We interviewed 17 staff members.

              Table 4. Interviews Conducted with PC/Namibia Staff Members
                            Position                       Status    Interviewed
       Country Director                                                   USDH       X
       Director of Programming and Training                               USDH       X
       Director of Management and Operations                              USDH       X


Final Program Evaluation Report: Peace Corps/Namibia                                             23
       Associate Peace Corps Directors (4)                                PSC                     X
       Program Assistant (2)                                              PSC                     X
       HIV/AIDS Coordinator                                               PSC                     X
       Training Manager                                                   PSC                     X
       Language and Cross Cultural Coordinator                            PSC                     X
       Medical Secretary                                                  PSC
       PCMO (2)                                                           PSC                     X
       Driver (3)                                                         PSC
       Cashier                                                            FSN
       Administrative Assistant                                           PSC
       Safety and Security Coordinator                                    PSC                     X
       Janitor                                                            PSC
       Receptionist                                                       PSC
       Homestay and Cross-cultural Coordinator                            PSC
       General Services Manager                                           PSC
       Training Secretary                                                 PSC
       PCMO (2)                                                           PSC                     X
       Temporary PTA for Health                                           PSC
       IT Specialist                                                      PSC
       Administrative Assistant/Finance                                   PSC
       Financial Specialist                                               FSN
       General Services Assistant                                         PSC
   Data as of June 2012. *PSC is personal services contractor; FSN is foreign service national.

Fifteen additional interviews were conducted during the preliminary research phase of the
evaluation, in-country fieldwork and follow-up work upon return to Peace Corps headquarters.

            Table 5. Interviews Conducted with PC/Headquarters Staff, Embassy
                             Officials and Key Ministry Officials
                             Position                           Organization
         Regional Director                                           PC/Headquarters/AF Region
         Chief of Operations                                         PC/Headquarters/AF Region
         Chief of Programming and Training                           PC/Headquarters/AF Region
         Country Desk Officer                                        PC/Headquarters/AF Region
         Chief Administrative Officer                                PC/Headquarters/AF Region
         Regional Security Advisor                                   PC/Headquarters/AF Region
         PCMO Program Coordinator                                    PC/Headquarters/VS
         Expert Consultant                                           PC/Headquarters/OPATS
         Peace Corps Safety and Security Officer – South             PC/Headquarters/SS
         Africa
         Director of Management and Operations                       PC/Headquarters/OGHH
         Ambassador                                                  U.S. Embassy to Namibia
         Regional Security Officer                                   U.S. Embassy to Namibia
         PEPFAR Country Coordinator                                  U.S. Embassy to Namibia
         Chief Inspector for Education                               Ministry of Education
                                                                     Ministry of Health and
         Control Officer
                                                                     Social Services, Directorate


Final Program Evaluation Report: Peace Corps/Namibia                                                  24
                                                       of Social Welfare Services,
                                                       Rehabilitation Division
       Data as of June 2012.




Final Program Evaluation Report: Peace Corps/Namibia                                 25
                          LIST OF RECOMMENDATIONS
WE RECOMMEND:

   1. That the country director ensure that site identification and selection is
      collaborative and consistent across projects and that involvement from all
      relevant parties is documented.

   2. That the country director ensure that site history files are easily accessible
      to staff so that they can be used develop sites or support Volunteers.

   3. That the post develop Project Advisory Committees for each of its
      projects.

   4. That the country director and programming and training staff assess the
      technical training program and make adjustments when necessary to
      improve the effectiveness of technical training for the education and health
      sectors.

   5. That post examine the local language training and testing program and
      make adjustments to ensure that Volunteers placed in sites where local
      language skills are needed for effective integration receive sufficient
      training to meet minimal proficiency requirements.

   6. That the Office of Volunteer Support clarify the requirement for Peace
      Corps medical officer visits to Volunteer sites and establish policy and
      procedures to guide posts in this activity.

   7. That the country director ensure Peace Corps medical officer site visits
      occur per agency guidance.

   8. That during the full security assessment of the post the Peace Corps safety
      and security officer provide input to post to determine which elements are
      critical elements of the Volunteer site locator form.

   9. That the country director ensure all critical information is being collected
      on the post‟s site locator form.

   10. That the country director require post staff to review the accuracy and
       completeness of site locator forms.

   11. That the country director ensure that all Volunteers know the location of
       their consolidation point.




Final Program Evaluation Report: Peace Corps/Namibia                                   26
   12. That the Peace Corps safety and security officer review emergency action
       planning and identify any deficiencies during the full security assessment
       of post.

   13. That the post review its Volunteer transportation policy, and make
       adjustments as necessary to clearly articulate to Volunteers what forms of
       transportation are authorized for their use.

   14. That the post develop a comprehensive annual report for stakeholders that
       addresses all projects at post as required by the Performance and
       Accountability Report.




Final Program Evaluation Report: Peace Corps/Namibia                                27
                  APPENDIX A: LIST OF ACRONYMS
 APCD                    Associate Peace Corps Director
 CD                      Country Director
 CHHAP                   Community Health and HIV/AIDS Project
 CSHPP                   Characteristics and Strategies of a High Performing Post
 COS                     Close of Service
 CIRS                    Consolidated Incident Reporting System
 CMO                     Chief of Management and Operations
 DMO                     Director of Management and Operations
 DPT                     Director of Programming and Training
 EAP                     Emergency Action Plan
 FITU                    Focus in and Train Up
 FSN                     Foreign Service National
 FY                      Fiscal Year
 HDI                     Human Development Index
 ICT                     Information Communications Technology
 IG                      Inspector General
 IPBS                    Integrated Planning and Budget System
 IST                     In-Service Training
 LPI                     Language Proficiency Index
 MBESC                   Ministry of Basic Education, Sports and Culture
 MOU                     Memorandum of Understanding
 MPC                     Multipurpose Centers
 MS                      Manual Section
 MST                     Mid-service Training
 NGO                     Nongovernmental Organizations
 OIG                     Office of the Inspector General
 OGHH                    Office of Global Health and HIV
 OMS                     Office of Medical Services
 OPATS                   Overseas Programming and Training Support
 PAC                     Project Advisory Council
 PAR                     Performance and Accountability Report
 PCM                     Peace Corps Manual
 PCMO                    Peace Corps Medical Officer
 PCPP                    Peace Corps Partnership Program
 PCRV                    Peace Corps Response Volunteer
 PCSSO                   Peace Corps Safety and Security Officer
 PA                      Project Assistant
 PAR                     Performance and Accountability Report
 PEPFAR                  President‟s Emergency Plan for AIDS Relief
 PSC                     Personal Services Contractor
 PST                     Pre-Service Training
 RSO                     Regional Security Officer


Preliminary Program Evaluation Report: Peace Corps/Namibia                          28
 SEED                    Small Enterprise and Entrepreneurship Development
 SLF                     Site Locator Form
 SSC                     Safety and Security Coordinator
 SUPEP                   Secondary and Upper Primary Education Project
 SWAPO                   South-West Africa People's Organization
 TG                      Medical Technical Guideline
 TIPEEG                  Targeted Intervention Program for Employment and
                         Economic Growth
 USDH                    United States Direct Hire
 VAC                     Volunteer Advisory Council
 VAST                    Volunteer Activities Support and Training
 VAD                     Volunteer Assignment Description
 VICA                    Volunteer In-Country Allowance
 VRF                     Volunteer Report Form
 VRS                     Volunteer Recruitment and Selection




Preliminary Program Evaluation Report: Peace Corps/Namibia                   29
APPENDIX B: AGENCY’S RESPONSE TO THE PRELIMINARY
                                      REPORT




Preliminary Program Evaluation Report: Peace Corps/Namibia   30
                       APPENDIX C: OIG COMMENTS
Management concurred with all 14 recommendations.12 Based on the documentation
provided, we closed six recommendations: numbers 1, 3, 4, 5, 11, and 14. In its response,
management described actions it is taking or intends to take to address the issues that
prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the agency has taken these actions or that we
have reviewed their effect. Certifying compliance and verifying effectiveness are
management‟s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.

Our comments reflect the final report recommendation numbering scheme. Eight
recommendations, numbers 2, 6, 7, 8, 9, 10, 12, and 13 remain open pending
confirmation from the chief compliance officer that the documentation reflected in the
OIG analysis is received. For recommendations 2 and 12, additional documentation is
requested.

2. That the country director ensure that site history files are easily accessible to staff
so that they can be used to develop sites or support Volunteers.

        Concur: Concurrent with the revision of site development and site visit forms as
        noted in the response to Recommendation #1, Post has been conducting a review
        of site history files and record management. Post has begun the process of
        improving site history files by reviewing Program and Training guidance, MS
        892, and solicited examples from other posts.

        To address this recommendation, Post's Program and Training Unit will now
        formally transfer the records of all Volunteers who complete their service from
        the active Volunteer file to the site history file. In this way, staff who need to
        review the site history file will have access to all of the historical records of
        Volunteers who have previously served in that site.

        Documents Submitted:
        N/A

        Status and Timeline for Completion:
        March 2013

        OIG Analysis: Please submit a memorandum from the CD indicating that the file
        system has been established and all site history files have been transferred.



12
  While the preliminary report contained 15 recommendations, we eliminated one recommendation,
recommendation number 12, because of duplication. All subsequent recommendation numbers were
changed accordingly.


Preliminary Program Evaluation Report: Peace Corps/Namibia                                       40
12. That the Peace Corps safety and security officer review emergency action
planning and identify any deficiencies during the full security assessment of post.

       Concur: The South Africa PCSSO plans to visit Post in late February 2013, and
       will provide input on emergency action planning during that visit. Post feels its
       Emergency Action Planning system and procedures are sound. Post's Emergency
       Action Plan has been comprehensively updated as of August 2012, and copies
       have been given to all Volunteers. Staff wardens have received training in their
       roles and responsibilities. Volunteer wardens have also received training in their
       roles and responsibilities.

       Post staff wardens conducted a full test of EAP emergency communications
       systems on October 25, 2012, which was completely successful with all
       Volunteers reached. Post also activated its Emergency Action Plan in October
       2012, consolidating Volunteers in Kavango Region during a widespread regional
       blackout which disrupted power, telephone, and some water supplies in that area.
       That EAP activation was successful.

       Documents Submitted:
       • Namibia EAP
       • One-Page EAP Mini Reference
       • VIDA EAP Test Record from October 25, 2012
       • VIDA EAP Activation Record from October 2012

       Status and Timeline for Completion:
       March 2013

       OIG Analysis: We acknowledge the post‟s success with its full EAP
       communications test and activation of the EAP in October 2012. In addition,
       please provide the trip report from the South Africa‟s PCSSO‟s February 2013
       visit to Namibia.




Preliminary Program Evaluation Report: Peace Corps/Namibia                              41
    APPENDIX D: PROGRAM EVALUATION COMPLETION AND
                     OIG CONTACT

PROGRAM                       This program evaluation was conducted under the
EVALUATION                    direction of Jim O‟Keefe, Assistant Inspector General for
                              Evaluations, by Senior Evaluator Susan Gasper.
COMPLETION
                              Additional contributions were made by Heather Robinson
                              and Tim Shaw.




                              Jim O‟Keefe
                              Assistant Inspector General for Evaluations


OIG CONTACT                   Following issuance of the final report, a stakeholder
                              satisfaction survey will be distributed. If you wish to
                              comment on the quality or usefulness of this report to help
                              us improve our products, please e-mail Jim O‟Keefe,
                              Assistant Inspector General for Evaluations and
                              Inspections, at jokeefe@peacecorps.gov, or call
                              202.692.2904.




Preliminary Program Evaluation Report: Peace Corps/Namibia                                  42
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                         Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                www.peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 www.peacecorps.gov/OIG
            Twitter:               www.twitter.com/PCOIG
